                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

  Case Number: A091l0081                                                                  Page 1 of 1



          A reviewer 1 for an NSF proposae discovered that the proposal was remarkably similar to a
          funded NIH proposaL 3 Our investigation showed that the identical material in the two proposals
          was co-authored by both investigators and no plagiarism occurred.

          Accordingly, this case is closed.




         2




NSF OIG Form 2 (11102)
